Ap 1

UNITED STATES COURT OF APPEALS FOR THE
EIGHTH CIRCUIT
No: 20-3597
In re: Chris Ann Jaye
Appeal from U.S. District Court for the Northern District
of Iowa - Central (l:19-cv-00121-CJW)
ORDER
The motion to enjoin New Jersey judges from rendering
void orders (14th Amend) violations is denied. The motion
for an order from 8th to direct clerk to enter defaults by
plaintiffs application is denied. The motion for declaratory
relief is denied. The petition for rehearing en banc is
denied. The petition for rehearing by the panel is also
denied.
January 20, 2021
Order Entered at the Direction of the Court: Clerk, U.S.
Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

*4jr

Ap 2

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3597
In re: Chris Ann Jaye
Petitioner
Appeal from U.S. District Court for the Northern District
of Iowa - Central
(1:19-cv-00121-C JW)
JUDGMENT
Before COLLOTON, BENTON, and STRAS, Circuit
Judges.
Petition for writ of mandamus has been considered by the
court and is denied. Mandate shall issue forthwith.
December 18, 2020
Order Entered at the Direction of the Court: Clerk, U.S.
Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

